No.
IN THE SUPREME COURT OF THE UNITED STATES

SHALEN STOLTZ
Petitioner,
v ..

UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE
I, KARYN H. BUCUR, declare as follows:
That I am a member of the Bar of the State of California and
of the United States Supreme Court.
I am appointed under the
Criminal Justice Act to represent Ms. Shalen Stoltz during
these proceedings by the Ninth Circuit; that on July
,
2021 the Petition For A Writ of Certiorari To The United
States Court of Appeals for Ninth Circuit, in the aboveentitled case was deposited in a United States Post Office
mail box located in Laguna Hills, California with first class
postage prepaid, properly addressed to the Clerk of the
Supreme Court of the United States and that an additional
copy of the petition and proof of mailing of the Application
was served on counsel for the United States:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530
Executed this
California.

19 th day of

July,

2021

at

Laguna Hills,

I declare under penalty of perjury that the foregoing is
.true and correct.

}itts~:LJ~t,."--

24881 Alicia Parkway
#E-193
Laguna Hills, California, 92653
(949) 472-1092

